September 29, 2000

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

KENNETH J. BRAUN
DISTRICT MANAGER, SOUTH GEORGIA DISTRICT OFFICE

SUBJECT:	 Audit Report - Review of the Violence Prevention and Response
          Programs in the South Georgia District (Report Number LB-AR-00-005)

This report presents the results of our review of the violence prevention and response
programs in the South Georgia District (Project Number 99EA007ER008). We
engaged a contractor, Williams, Adley & Company, LLP, to assist us in conducting
the audit. This audit report is one of a series of reports on violence prevention and
response efforts within the Postal Service.

On the basis of our review, we concluded that required controls were not fully
implemented to reduce the potential for violence in the South Georgia District and the
district’s ability to respond to crisis situations could be improved. Although the district
generally complied with the Threat Assessment Team Guide when reacting to incidents
of violence, and also generally complied with some of the policies and procedures in the
Crisis Management Plan for Incidents of Violence in the Workplace, it did not comply
with other violence prevention requirements. Although the vice president for the
Southeast Area did not agree with our overall conclusions, we believe the district’s
planned or implemented actions are responsive to the recommendations and address
the issues identified in this report. Therefore, we will not pursue resolution on this
disagreement at this time. Management’s comments and our evaluation of their
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions, please contact Joyce Hansen, director, Labor
Management-Rosslyn, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment
cc: Patrick R. Donahoe
    Yvonne D. Maguire
    Anthony J. Vegliante
    John R. Gunnels
Review of the Violence Prevention and Response                           LB-AR-00-005
 Programs in the South Georgia District


                                  TABLE OF CONTENTS

Executive Summary                                                            i

Part I

Introduction

   Background                                                               1
   Objective, Scope, and Methodology                                        1

Part II

Audit Results

   Potential for Violence in the District                                   2

   Implementation of Violence Prevention and Response Programs               2
   Recommendations                                                          13
   Summary of Management’s Comments                                         13
   Evaluation of Management’s Comments                                      14

Appendix A. Objective, Scope, and Methodology                               16

Appendix B. Statistical Sampling and Projections for Physical Security      18
            Reviews and the Existence of Crisis Management Plans
            For Facilities In the South Georgia District Fiscal Years
            1997 and 1998

Appendix C. Sample of Crisis Management Plans On Site and Physical          20
            Security Reviews Conducted at South Georgia District
            Facilities Fiscal Years 1997 and 1998

Appendix D. Statistical Sampling and Projections for Employees Trained      22
            in Workplace Violence Awareness in the South Georgia
            District June 1, 1997, Through June 30, 1999

Appendix E. Management’s Comments                                           24
Review of the Violence Prevention and Response                                   LB-AR-00-005
 Programs in the South Georgia District


                                  EXECUTIVE SUMMARY
Introduction 	               This report presents the results of our review of violence
                             prevention and response efforts within the South Georgia
                             District, located in the Southeast Area. The South Georgia
                             District was one of six districts randomly selected from the
                             nine districts within the Southeast Area.

                             The Office of Inspector General (OIG) engaged a
                             contractor, Williams, Adley, & Company, LLP, to conduct
                             fieldwork and data analysis, prepare working papers, and
                             draft reports. The OIG provided technical support, statistical
                             projections, and quality assurance reviews. The OIG and
                             the contractor prepared the final report.

                             Our objective was to determine whether the South Georgia
                             District implemented Postal Service policies regarding
                             violence prevention and response programs.

Results in Brief	            On the basis of the review, we concluded that required
                             controls were not fully implemented to reduce the potential
                             for violence in the South Georgia District. The district
                             generally complied with the Threat Assessment Team
                             Guide when reacting to incidents of violence. The district:

                             •	 Communicated and enforced its zero tolerance policy.

                             •	 Established its Threat Assessment Team in
                                October 1997.

                             •	 Engaged in case management by establishing risk
                                abatement plans and following up on identified threats.

                             •	 Evaluated team performance through the use of post
                                incident analyses and surveys.

                             The district also generally complied with some of the
                             policies and procedures outlined in the Crisis Management
                             Plan for Incidents of Violence in the Workplace when it
                             established a Crisis Management Team and conducted
                             initial crisis management training and crisis simulations.

                             However, the South Georgia District did not fully implement
                             required proactive strategies designed to prevent violence
                             from occurring, as required by the Threat Assessment Team


                                                 i
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                             Guide. The district did not follow many of the policies and
                             procedures because officials implemented only those
                             portions of the guide that they believed were beneficial to
                             the district. As a result, required controls were not fully
                             implemented to reduce the potential for violence in the
                             workplace. Our audit disclosed the South Georgia District
                             did not:

                             •	 Conduct annual physical security reviews.

                             •	 Monitor and evaluate climate indicators.

                             •	 Provide the required two-day orientation training to
                                threat assessment team members.

                             •	 Mandate violence awareness training.

                             In addition, the district did not ensure receipt of local,
                             customized crisis management plans at all facilities in
                             accordance with the Crisis Management Plan for Incidents
                             of Violence in the Workplace. We used a statistical sample
                             to project that as many as 341 (74 percent) of the 463 South
                             Georgia District facilities did not have a copy of their local,
                             customized plan on site. (See Appendices B and C.)

Summary of                   We recommended the vice president, Southeast Area
Recommendations              Operations, direct the South Georgia District manager to
                             implement six recommendations designed to ensure
                             controls are implemented to improve the effectiveness of
                             the district’s violence prevention and response programs.

Summary of                   The vice president Southeast Area Operations observed
Management’s                 that the OIG report focused on the condition of the violence
Comments                     awareness programs in fiscal year (FY) 1997 and 1998. He
                             stated that because the OIG based its August 2000
                             conclusions on data obtained before June 1999 (the
                             majority of which is FY 1997 and FY 1998), the conclusions
                             are somewhat misleading. The vice president emphasized
                             that the Southeast Area remains committed to the
                             continuous improvement of the violence prevention and
                             response programs and that instructions would be issued to
                             district managers to reinforce the need to implement the
                             controls necessary to improve the effectiveness of the
                             programs.



                                                 ii
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District



                             The South Georgia District manager responded to the
                             recommendations and provided an action plan that the
                             district had implemented to correct the deficiencies.

                             We have summarized management’s comments in the
                             report and included the full text of the comments in
                             Appendix E.

Overall Evaluation of        While we disagree that the OIG report was misleading and
Management                   focused on the condition of the violence awareness
Comments                     programs in FY 1997 and 1998, using data from those fiscal
                             years was necessary because they were the latest complete
                             fiscal years at the time of our visit. However, interviews with
                             Postal Service officials regarding their implementation of
                             proactive strategies occurred in September 1999.

                             Although the vice president for the Southeast Area did not
                             agree with our overall conclusions, we believe the district’s
                             planned or implemented actions are responsive to the
                             recommendations and address the issues identified in this
                             report.




                                                 iii
Review of the Violence Prevention and Response                                                 LB-AR-00-005
 Programs in the South Georgia District


                                              INTRODUCTION
Background                          The Postal Service recognizes the importance of ensuring
                                    the safety of its employees by creating and maintaining a
                                    work environment that is violence-free. This concept
                                    emphasizes using a viable workplace violence prevention
                                    program as a first step in helping to ensure a violence-free
                                    workplace. An effective program depends on a universal
                                    zero tolerance policy and a zero tolerance action plan that is
                                    consistently implemented for the management of threats,
                                    assaults, and other inappropriate workplace behavior.

                                    The Postal Service established the following initiatives and
                                    strategies to prevent and minimize the potential risk for
                                    violence in the workplace:

                                    •	 The Joint Statement on Violence and Behavior in the
                                       Workplace states the Postal Service’s position that
                                       violent and inappropriate behavior will not be tolerated
                                       by anyone at any level of the Postal Service.

                                    •	 The Threat Assessment Team Guide, Publication 108,
                                       and the Crisis Management Plan for Incidents of
                                       Violence in the Workplace, Publication 107,1 require
                                       districts to develop appropriate threat assessment and
                                       crisis management teams, as well as team plans of
                                       operation.

                                    •	 The Administrative Support Manual requires security
                                       control officers or their designees to conduct annual
                                       physical security reviews at all facilities.

Objective, Scope, and               Our objective was to determine whether the South Georgia
Methodology                         District implemented Postal Service policies regarding
                                    violence prevention and response programs.




1
    The Crisis Management Plan for Incidents of Violence in the Workplace is under revision.




                                                           1
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                                      AUDIT RESULTS
Potential for Violence       On the basis of the review, we concluded that required
in the District              controls were not fully implemented to reduce the potential
                             for violence in the South Georgia District and the district’s
                             ability to respond to crisis situations could be improved.
                             Although the district generally complied with the Threat
                             Assessment Team Guide when reacting to incidents of
                             violence and also generally complied with some of the
                             policies and procedures in the Crisis Management Plan for
                             Incidents of Violence in the Workplace, it did not comply
                             with other violence prevention requirements.

                             Districts that do not comply with these requirements face an
                             increased risk for violence in their facilities. Such violence
                             increases stress, inflicts emotional wounds, and lowers
                             employee morale. Organizationally, it diminishes credibility,
                             decreases productivity, creates work-specific tension, and
                             may lead to damage of property.

Implementation of            The South Georgia District generally complied with the
Violence Prevention          Threat Assessment Team Guide when reacting to incidents
and Response                 of violence. The district:
Programs
                             •	 Communicated and enforced its zero tolerance policy.

                             •	 Established its Threat Assessment Team in
                                October 1997.

                             •	 Engaged in case management by establishing risk
                                abatement plans and following up on identified threats.

                             •	 Evaluated team performance through the use of post-
                                incident analyses and surveys.

                             The district also generally complied with some of the
                             policies and procedures outlined in the Crisis Management
                             Plan for Incidents of Violence in the Workplace when it
                             established a Crisis Management Team and conducted
                             initial crisis management training and crisis simulations.

                             However, the South Georgia District did not fully implement
                             required proactive strategies designed to prevent violence
                             from occurring, as required by the Threat Assessment Team
                             Guide. The district did not follow many of the policies and


                                                 2
Review of the Violence Prevention and Response                                                            LB-AR-00-005
 Programs in the South Georgia District


                                   procedures because officials implemented only those
                                   portions of the guide that they believed were beneficial to
                                   the district. As a result, required controls were not fully
                                   implemented to reduce the potential for violence in the
                                   workplace. Our audit disclosed the South Georgia District
                                   did not:

                                   •	 Conduct annual physical security reviews.

                                   •	 Monitor and evaluate climate indicators.

                                   •	 Provide the required two-day orientation training to
                                      threat assessment team members.

                                   •	 Mandate violence awareness training.

                                   In addition, the district did not ensure receipt of local,
                                   customized crisis management plans at all facilities in
                                   accordance with the Crisis Management Plan for Incidents
                                   of Violence in the Workplace. Officials at some of the
                                   district facilities stated they could not locate the plans. We
                                   used a statistical sample to project that as many as
                                   328 (70 percent) of the 463 district facilities did not have a
                                   copy of their local, customized plan on site. (See
                                   Appendices B and C.)

Physical Security                  The district did not conduct annual physical security reviews
Reviews                            at all facilities as mandated by the Postal Service
                                   Administrative Support Manual. District officials told us
                                   training on how to conduct the surveys had not been
                                   provided to officials at all the district’s facilities.

                                   The Postal Service Administrative Support Manual,
                                   Chapter 2, Section 27, requires the security control officer or
                                   designee to conduct annual physical security reviews at all
                                   Postal Service facilities to ensure that the appropriate
                                   attention is given to security issues.2

                                   We used a statistical sample to project that the South
                                   Georgia District conducted no more than 76 (17 percent) of
                                   the 450 required annual physical security reviews in
                                   FY 1997. In FY 1998, the district conducted no more than

2
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility liaison with the Postal Inspection Service on all security matters.



                                                            3
Review of the Violence Prevention and Response                                                        LB-AR-00-005
 Programs in the South Georgia District


                                    128 (28 percent) of the 463 required annual physical
                                    security reviews. (See Appendices B and C.)

                                    The lack of physical security reviews at Postal Service
                                    facilities may increase the risk of workplace violence or the
                                    loss or destruction of Postal Service property and the mail.

Climate Indicators 	                We found that the South Georgia District did not monitor
                                    and evaluate climate indicators as required by the Threat
                                    Assessment Team Guide because, according to the Human
                                    Resources manager, the Threat Assessment Team only
                                    met when there was a threat case to discuss. Therefore,
                                    the district did not identify and follow up on events that could
                                    escalate the potential for violence. As a result, controls
                                    associated with identifying and assessing indicators were
                                    not used to reduce the potential for violence in the
                                    workplace.

                                    The guide outlines several climate indicators that are
                                    relevant for review when making such determinations.
                                    Among those indicators are grievances, Equal Employment
                                    Opportunity complaints, referrals to the Employee
                                    Assistance Program, and labor-management relationships.3

                                    We reviewed several climate indicators that management
                                    could use as benchmarks to assess the workplace climate
                                    and identify locations that may require a climate
                                    assessment.




3
    We considered the results of the Voice of the Employee surveys as an indicator of labor-management relationships.



                                                           4
Review of the Violence Prevention and Response                                                 LB-AR-00-005
 Programs in the South Georgia District



                                Grievances. Exhibit 1 shows the South Georgia District
                                had the lowest ratio (16:100) of step 3 grievance appeals to
                                employees, for the period June 1, 1997, through June 30,
                                1999.4




                                For the same period, Exhibit 2 shows the district had the
                                lowest ratio (11:100) of step 3 contract-related grievance
                                appeals to employees.




4
  In a report entitled, “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1; GAO reported that a ratio of 13:100 grievances to employees was a high
ratio. Union and management officials did not dispute this claim.



                                                      5
Review of the Violence Prevention and Response                                   LB-AR-00-005
 Programs in the South Georgia District


                             The district had one of the third lowest ratios (5:100) of
                             step 3 discipline-related grievance appeals to employees,
                             for the same period, as shown in Exhibit 3.




                             Equal Employment Opportunity Complaints. Exhibit 4
                             shows that during the period June 1, 1997, to June 30,
                             1999, the district shared the third highest ratio (1:18) of
                             Equal Employment Opportunity formal complaints to
                             employees, in the Southeast Area.




                                                 6
Review of the Violence Prevention and Response                                                       LB-AR-00-005
 Programs in the South Georgia District


                                 Employee Assistance Program Cases. For the same
                                 period, the district shared the second highest ratio (1:8) of
                                 total pre-case activity5 Employee Assistance Program cases
                                 per employee as depicted in Exhibit 5.




5
  The total pre-case activity contacts include all employees, family members, or supervisors who made contact with
the Employee Assistance Program either by telephone or in-person to set up an appointment with an Employee
Assistance Program counselor.



                                                         7
Review of the Violence Prevention and Response                                                         LB-AR-00-005
 Programs in the South Georgia District



                                  Voice of the Employee Survey Results. A majority of
                                  employees who responded to the Voice of the Employee
                                  survey6 in the South Georgia District were generally
                                  satisfied with their work environment. As shown in
                                  Exhibits 6 and 7, the number of employees who responded
                                  favorably to their workplace environment ranged from
                                  55 percent in quarter 4 of 1998, to about 60 percent in
                                  quarters 1, 2, and 3, of 1999. The number of employees
                                  who responded unfavorably to their workplace environment
                                  ranged from 23 percent in quarter 4, 1998, to about
                                  20 percent in quarters 1, 2, and 3 of 1999. In addition,
                                  about 20 percent of the employees, who responded for the
                                  same quarters, remained neutral.




6
  The Voice of the Employee survey is a data collection instrument that the Postal Service has established to help
improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,
have opportunities to participate and take pride in being postal employees.



                                                          8
Review of the Violence Prevention and Response                                  LB-AR-00-005
 Programs in the South Georgia District




                             While these indicators cannot be used as the sole basis for
                             reaching conclusions concerning the district’s workplace
                             environment, the Threat Assessment Team can use them to
                             assess the potential for violence in the district.

                             Climate Assessments. The South Georgia District
                             conducted four climate assessments during our audit
                             period. However, the climate assessments were not a
                             result of the district’s evaluation of any of the climate
                             indicators discussed earlier. The Employee and Workplace
                             Intervention Analyst told us the climate studies were
                             conducted based on requests made by the district Human
                             Resources manager resulting from employee complaints
                             and/or congressional inquiries. Routine analysis of climate
                             indicators may have identified the need for climate
                             assessments at sites before problems occurred.

                             For example, a work climate study was conducted in
                             January 1998 at a post office. The postmaster at the facility
                             implemented a new plan to address delivery confirmation
                             problems and excessive vehicle accidents. After employees
                             received disciplinary action based on the new plan, they
                             wrote letters to their congressmen making allegations of
                             harassment and intimidation from supervisors. The Human
                             Resources manager and postmaster requested a climate
                             survey in response to the letters. The Employee and



                                                 9
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                             Workplace Intervention Analyst conducted the climate
                             assessment. However, an action plan was not developed to
                             address the workplace climate issues and the district did not
                             follow up to ensure that the complaints were satisfactorily
                             resolved.

                             A work climate survey was conducted in January 1999 at a
                             second post office. District officials requested a climate
                             survey based on several anonymous letters complaining
                             about misdeeds of the postmaster and other work climate
                             problems. The Employee and Workplace Intervention
                             Analyst conducted the survey, but did not interview all
                             significant parties. As a result of the survey, the Employee
                             and Workplace Intervention Analyst concluded there were
                             few, if any, organizational problems at the post office. He
                             recommended that the postmaster hold stand-up talks to
                             address comments made by the employees during the
                             survey.

                             The district could improve its process for evaluating the
                             workplace climate by proactively identifying and monitoring
                             sites or situations that have the potential for violence.
                             Reviewing the indicators on a periodic basis could provide
                             valuable information about conflict in district facilities.

Threat Assessment            Only two of the six Threat Assessment Team core members
Team Orientation             received the 2-day orientation training required by the
                             Threat Assessment Team Guide because district officials
                             implemented only those portions of the guide, which they
                             believed were beneficial to the district. As a result, the
                             Threat Assessment Team may not have been adequately
                             trained to establish an effective violence prevention
                             program.

                             The Threat Assessment Team Guide requires that all core
                             threat assessment team members and postal inspectors
                             receive a 2-day orientation regarding the Postal Service
                             approach to the threat assessment team process. This
                             training is also to make each participant aware of the Postal
                             Service commitment to a strategic plan for reducing
                             violence in the workplace.

                             The Human Resources manager and the Employee and
                             Workplace Intervention Analyst attended the 2-day
                             orientation training and told us they received certificates



                                                 10
Review of the Violence Prevention and Response                                                         LB-AR-00-005
 Programs in the South Georgia District


                                  qualifying them to provide the training to others. The other
                                  core members of the team told us they received
                                  approximately one to two hours of orientation training from
                                  the Employee and Workplace Intervention Analyst.

Violence Awareness 	              The district did not provide workplace violence awareness
Training	                         training for all craft employees, supervisors, and managers
                                  in accordance with the Threat Assessment Team Guide
                                  because district officials implemented only those portions of
                                  the guide which they believed were beneficial to the district.
                                  Employees who have not received violence awareness
                                  training may not be effective in preventing violence in the
                                  workplace.

                                  The Threat Assessment Team Guide states that every
                                  Postal Service manager and supervisor should complete
                                  eight hours of workplace violence awareness training and
                                  four hours of follow up training. Training topics should
                                  include defusing a difficult situation and providing effective
                                  supervision. In September 1998, Postal Service
                                  management mandated one hour of violence awareness
                                  training for all craft employees, supervisors, and managers.

                                  The South Georgia District’s workplace violence awareness
                                  training consisted of:

                                  •	 An eight-hour workplace violence awareness training
                                     course primarily for managers and supervisors.

                                  •	 Introduction to workplace violence awareness for new
                                     employees.7

                                  •	 Stand-up sessions conducted by the Employee and
                                     Workplace Intervention Analyst at postal facilities
                                     throughout the district.8

                                  •	 Satellite television displays throughout the district
                                     concerning workplace violence which were available for
                                     viewing by all employees.

                                  We used a statistical sample to project the number of
                                  managers, supervisors, and craft employees who had
7
  We did not verify attendance at the new employee orientation training because it was not within the scope of our 

audit. 

8
  We could not verify attendance at the stand up session training because a record of attendees was not kept. 




                                                         11
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                             attended violence awareness training from June 1, 1997,
                             through June 30, 1999. We projected that up to
                             110 (14 percent), of the 760 managers and supervisors in
                             the district did not receive any workplace violence training.
                             We projected that no more than 43 (6 percent) of the
                             760 managers and supervisors received both the eight-hour
                             workplace violence awareness training course and the four
                             hours of follow up training. For the same period, we
                             projected that up to 757 (99 percent) of the 760 managers
                             and supervisors attended some violence awareness
                             training, ranging from one to eight-hours, but did not meet
                             the specific 12-hour criterion. (See Appendix D.)

                             The manager of Human Resources told us the district sent a
                             one-hour violence awareness training video to all locations
                             for viewing by all employees; however, attendance at these
                             viewing sessions was not documented. We projected that
                             no more than 313 (6 percent) of the 5,333 craft employees
                             in the South Georgia District received the required one-hour
                             violence awareness training course. (See Appendix D.)

                             The Postal Service has recognized violence awareness
                             training for supervisors, managers, and craft employees as
                             a vital component in preventing violence in the workplace.
                             This training is mandatory because employees need
                             effective tools to recognize the warning signs of violence
                             and possibly defuse difficult situations.

Crisis Management            The South Georgia District did not ensure receipt of local,
Plans Available at           customized crisis management plans at all district facilities
Facilities                   in accordance with the Crisis Management Plan for
                             Incidents of Violence in the Workplace. Officials at some of
                             the district facilities stated they could not locate the plans.

                             We used a statistical sample to project that as many as
                             328 (70 percent) of the 463 facilities in the district did not
                             have a copy of their local plan. (See Appendices B and C.)

                             Facilities that do not have crisis management plans on site
                             may not have the necessary information to manage a crisis
                             through to a successful conclusion.




                                                 12
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District




Recommendations              We recommend the vice president, Southeast Area
                             Operations, direct the South Georgia District manager to
                             implement controls to improve the effectiveness of the
                             violence prevention and response programs. Specifically:

                             1. Provide the appropriate training to security control
                                officers.

                             2. Conduct annual physical security reviews at all district
                                facilities.

                             3. Monitor and evaluate climate indicators to identify
                                conflict that could lead to violence in the workplace.

                             4. Provide the required 2-day orientation training to all core
                                members of the Threat Assessment Team.

                             5. Mandate attendance at violence awareness training for
                                all craft employees, supervisors, and managers.

                             6. Ensure receipt of local, customized crisis management
                                plans at all facilities.

Summary of                   The vice president Southeast Area Operations observed
Management’s                 that the OIG report focused on the condition of the violence
Comments                     awareness programs in FY 1997 and 1998. He stated that
                             because the OIG based its August 2000 conclusions on
                             data obtained before June 1999 (the majority of which is
                             FY 1997 and FY 1998), the conclusions are somewhat
                             misleading. He added that the report does not reference
                             any information/data during the past year (data pre-dates
                             June 1999). For example, the vice president pointed out
                             that the Southeast Area mandated the necessary Violence
                             Awareness Training in September 1999 for FY 2000 and
                             that training has now been fully completed and documented.
                             The vice president emphasized that the Southeast Area
                             remains committed to the continuous improvement of the
                             violence prevention and response programs and that
                             instructions would be issued to district managers to
                             reinforce the need to implement the controls necessary to
                             improve the effectiveness of the programs.

                             The South Georgia District manager responded to the
                             specific recommendations and stated that the District


                                                 13
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                             Security Control Officer and Assistant Security Control
                             Officer were given the appropriate training from April 27 –
                             30, 1999, and that fifty-two local Security Control Officers
                             received training on June 10, 1999. He also noted that
                             annual physical security reviews were being completed and
                             as of August 3, 2000, these reviews were 75 percent
                             complete. The district manager also indicated that the
                             district is in the process of developing an automated method
                             for evaluating climate indicators on a regular basis and that
                             currently, the Employee Workplace Intervention Analyst and
                             the Employee Assistance Program counselor meet monthly
                             to evaluate offices with a high rate of employee assistance
                             program referrals. In addition, he noted that procedures for
                             conducting climate assessments have been changed to
                             require the preparation of action plans by managers. The
                             district is also scheduling and documenting the required
                             two-day training for the core members of the threat
                             assessment team.

                             The district manager noted that the district located training
                             records and can now document that all craft employees
                             received violence awareness training in 1998 and other
                             required training has taken place or is planned. Further, the
                             district manager stated that customized Crisis Management
                             Plans would be completed and issued by September 29,
                             2000. He noted that the estimated completion date for
                             documentation that all facilities have a local customized
                             plan is October 31, 2000.

                             We have summarized management’s comments in the
                             report and included the full text of the comments in
                             Appendix E.

Evaluation of                While we disagree that the OIG report was misleading and
Management’s                 focused on the condition of the violence awareness
Comments                     programs in FY 1997 and 1998, using data from those fiscal
                             years was necessary because they were the latest complete
                             fiscal years at the time of our visit. However, interviews with
                             postal officials regarding their implementation of proactive
                             strategies occurred in September 1999. We do
                             acknowledge that some time lapsed between the
                             completion of our fieldwork and release of our draft report to
                             management due to the application of this review at 24
                             other districts. Yet, we believe the report presents a fair
                             portrayal of the district’s threat assessment program.



                                                 14
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


                             Although the vice president for the Southeast Area did not
                             agree with our overall conclusions, we believe the district’s
                             planned or implemented actions are responsive to the
                             recommendations and address the issues identified in this
                             report.




                                                 15
Review of the Violence Prevention and Response                                                        LB-AR-00-005
 Programs in the South Georgia District


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
The Office of Inspector General (OIG) and the contractor reviewed applicable laws,
policies, procedures, climate assessments, and other documents, such as the Postal
Inspection Service’s Assault and Threats Incident Reports and investigative worksheets.
The OIG and contractor also reviewed United States General Accounting Office (GAO)
reports related to labor-management issues.

The OIG and contractor interviewed Postal Service officials in the South Georgia
District, Southeast Area, and headquarters to obtain information about the Postal
Service workplace environment, and the procedures and policies implemented to
ensure a safe and violence-free workplace.

To determine the district's compliance with policies and procedures, the OIG and
contractor reviewed the district's Threat Assessment Team activities, zero tolerance
policy, and crisis management plan. The OIG and contractor compared the activities,
policies, and plans to the Postal Service requirements for violence prevention and
response strategies. The district's initiatives for addressing workplace environmental
climate issues, including training programs on violence prevention and response, were
also reviewed.

The OIG and contractor reviewed climate indicators outlined in the Threat Assessment
Team Guide that may help the Threat Assessment Team develop preventive measures
to moderate risk and liability. Those climate indicators were the numbers of employee
grievances, Equal Employment Opportunity complaints, and Employee Assistance
Program cases for all districts in the Southeast Area, including the South Georgia
District, for the period of June 1, 1997, through June 30, 1999.9 For the same period,
the OIG and contractor reviewed the workplace climate assessments for the South
Georgia District. The OIG and contractor also reviewed results from the 1998 and 1999
Voice of the Employee surveys conducted in the South Georgia District. We reviewed
this data as indicators of conflict that could lead to violence in the South Georgia
District. The OIG and contractor compared some of the indicators in the South Georgia
District to the same indicators in other districts within the Southeast Area.10

For fiscal years (FY) 1997 and 1998, the OIG projected the number of facilities where
district officials conducted annual physical security reviews, and maintained crisis
management plans on site.11 We used statistical sampling methodologies to determine
these numbers. (See Appendix B.)


9
  The OIG selected this audit period because Postal Service published the Threat Assessment Team Guide and 

Crisis Management Plan for Incidents of Violence in the Workplace in May 1997. 

10
   The OIG obtained this data from the Postal Service databases but did not verify the accuracy of the data.
11
   The OIG obtained this data from the Postal Service database. We did not verify the accuracy of the data, however, 

the audit team made every effort to include only sites that fell under Postal Service violence prevention and threat 

assessment guidelines. The team effort, therefore, included removing locations such as contractor-only facilities, 

parking lots, land, and antenna sites from the data provided, to arrive at the facility population size. 




                                                         16
Review of the Violence Prevention and Response                            LB-AR-00-005
 Programs in the South Georgia District


For the period June 1, 1997, through June 30, 1999, the OIG projected the number of
craft employees, supervisors, and managers who received the required number of
hours of workplace violence awareness training. We used statistical sampling
methodologies to project these numbers.12 (See Appendix D.)

The OIG and the contractor conducted the audit from September 1999, through
September 2000, in accordance with generally accepted government auditing standards
and included such tests of internal controls as considered necessary under the
circumstances. The OIG and contractor discussed the conclusions and observations
with appropriate management officials and included their comments where appropriate.




12
     See footnote number 10.



                                                 17
Review of the Violence Prevention and Response                                     LB-AR-00-005
 Programs in the South Georgia District


                                         APPENDIX B
     STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
        SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
              MANAGEMENT PLANS FOR FACILITIES
                IN THE SOUTH GEORGIA DISTRICT
                  FISCAL YEARS 1997 AND 1998
Purpose of the Sampling

One of the objectives of this audit was to assess the South Georgia District’s
implementation of Postal Service policy regarding physical security reviews and crisis
management plans. In support of this objective, the audit team employed a simple
random attribute sample design that allows statistical projection of responses from
individual facilities within the South Georgia District.

Definition of the Audit Universe

The audit universe consisted of 463 facilities, such as post offices, stations, branches,
postal stores, and processing and distribution centers. The South Georgia District
management was the source of the universe data. The audit team made every effort to
clean the database to include only sites that fell under Postal Service violence
prevention and threat assessment guidelines. The team effort, therefore, included
removing locations such as contractor-only facilities, parking lots, land, and antenna
sites from the data provided, to arrive at the above-stated 463-facility population size.

Sample Design and Modifications

The audit used a simple random sample design. We randomly sampled 35 facilities for
review. This sample size was planned to select facilities at the second stage of a two-
stage design and was, therefore, not designed to provide a predetermined level of
precision for an individual district projection. In changing to district-level projections, the
audit team agreed to accept whatever level of precision derived from the existing
sample size. Three separate attributes were included for the facility analysis.

Statistical Projections of the Sample Data

Attribute 1: Physical Security Reviews Conducted In FY 1997

The sample of facilities for 1997 included one site that did not exist at that time.
Because no specific data was available to determine exactly how many other such
facilities might be in the database, we had to make an estimate of the size of the
applicable subpopulation. Using ((N-n)/N) as an unbiased estimator for ((N1-n1)/N1),




                                                 18
Review of the Violence Prevention and Response                                    LB-AR-00-005
 Programs in the South Georgia District


where N1 is unknown, we arrived at an estimated subpopulation size of 450 for this
attribute (Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990,
chapter 11.3).

Because of the low number of “positive” responses in the sample, this results set was
analyzed using the hypergeometric adaptation of the binomial attribute table for controls
testing, found in the GAO’s Financial Audit Manual (the “FAM”). Because the
population size is small (N=450), the tabulated values (for 95 percent reliability) are
adjusted by the hypergeometric finite population correction, ((N-n)/(N-1))^0.5.

Based on a projection of the sample results, we are 95 percent confident that no more
than 76 (17 percent) of the South Georgia District facilities conducted a physical
security review in FY 1997. The unbiased point estimate is 26 facilities. (Estimated
universe: 450)

Attribute 2: Physical Security Reviews Conducted In FY 1998

This attribute is projected to the full universe of 463 facilities; no inapplicable cases
were found in the sampled facilities. The sample data were analyzed based on the
estimation of a population proportion for a simple random sample as described in
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

Based on a projection of the sample results, we are 95 percent confident that no more
than 128 (28 percent) of the South Georgia District facilities conducted a physical
security review in FY 1998. The unbiased point estimate is 79 facilities. (Universe:
463)

Attribute 3: Crisis Management Plans on Site

This attribute is projected to the full universe of 463 facilities; no inapplicable cases
were found in the sampled facilities. The sample data were analyzed based on the
estimation of a population proportion for a simple random sample as described in
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

Based on a projection of the sample results, we are 95 percent confident that as many
as 328 (70 percent) of the South Georgia District facilities did not have a copy of the
district crisis management plan. The unbiased point estimate is 278 facilities without
the crisis management plan. (Universe: 463.)




                                                 19
Review of the Violence Prevention and Response                                 LB-AR-00-005
 Programs in the South Georgia District


                                         APPENDIX C
 SAMPLE OF CRISIS MANAGEMENT PLANS ON SITE AND PHYSICAL
               SECURITY REVIEWS CONDUCTED
           AT SOUTH GEORGIA DISTRICT FACILITIES
                 FISCAL YEARS 1997 and 1998
                                                                           PHYSICAL
                                                            CRISIS         SECURITY
ITEM          TYPE OF                             ZIP
                                  LOCATION               MANAGEMENT        REVIEWS
 NO.          FACILITY                           CODE
                                                         PLANS ON SITE    CONDUCTED
                                                                         FY 97   FY 98
1        Main Post Office       Rebecca          30450       NO           NO      NO
2        Main Post Office       Pavo             31778       YES          NO      YES
3        Main Post Office       Rincon           31326       YES          NO      YES
4        Martinez Branch        Augusta          30907       YES          NO      NO
5        Main Post Office       Swainsboro       30401       YES          NO      NO
6        Main Post Office       Buena Vista      31803       NO           YES     YES
7        Main Post Office       Plains           31780       YES          YES     YES
8        Main Post Office       Baxley           31513       NO          *N/A     NO
9        Main Post Office       Arabi            31712       YES          NO      NO
10       Main Post Office       Jewell           31045       NO           NO      NO
         Modular Site
11       Main Post Office       Arlington        31213       YES          NO         NO
                                Place Macon
12       Main Post Office       Portal           30450       NO           NO         NO
13       Main Post Office       Milledgeville    31061       NO           NO         NO
14       Main Post Office       Edison           31746       YES          NO         NO
15       Main Post Office       Sylvania         30467       NO           NO         NO
16       Main Post Office       Shiloh           31826       NO           NO         NO
17       Main Post Office       Rockledge        30450       YES          NO         NO
         Modular Site
18       Main Post Office       Parksville       29844       NO           NO         NO
19       Main Post Office       Allentown        31003       YES          NO         NO
20       Main Post Office       Olar             29843       YES          NO         NO
21       Main Post Office       Islandton        29929       NO           NO         NO
         Modular Site
22       Main Post Office       Musella          31066       YES          NO         NO
23       Main Post Office       McCormick        29835       NO           NO         NO
24       Main Post Office       Miley            29933       NO           NO         NO
25       Main Post Office       Appling          31712       NO           NO         NO
26       Main Post Office       Barney           31625       NO           NO         NO
27       Main Post Office       Hephzibah        30815       YES          NO         NO
28       Main Post Office       Ashburn          31714       NO           NO         NO
29       Main Post Office       Coolidge         31738       YES          NO         NO
30       Main Post Office       Stapleton        30823       NO           NO         NO
31       Main Post Office       Allenhurst       31301       NO           NO         NO



                                                 20
Review of the Violence Prevention and Response                               LB-AR-00-005
 Programs in the South Georgia District


                                                                           PHYSICAL
                                                            CRISIS         SECURITY
ITEM          TYPE OF                             ZIP
                                     LOCATION            MANAGEMENT        REVIEWS
 NO.          FACILITY                           CODE
                                                         PLANS ON SITE    CONDUCTED
                                                                         FY 97   FY 98
32       Main Post Office           Albany       31702       YES          NO      NO
33       Main Post Office           Parrott      31777       NO           NO      NO
34       Main Post Office           Soperton     30457       YES          NO      NO
35       Main Post Office           Alston       30412       NO           NO      NO

* Facility Opened in October 1998




                                                 21
Review of the Violence Prevention and Response                                 LB-AR-00-005
 Programs in the South Georgia District


                                         APPENDIX D
    STATISTICAL SAMPLING AND PROJECTIONS FOR EMPLOYEES
         TRAINED IN WORKPLACE VIOLENCE AWARENESS
                IN THE SOUTH GEORGIA DISTRICT
                  JUNE 1, 1997, TO JUNE 30, 1999
Purpose of the Sampling

One of the objectives of this audit was to assess the South Georgia District’s
implementation of Postal Service policy to train supervisors/managers and craft
employees in conflict resolution and workplace violence awareness. In support of this
objective, the audit team conducted statistical samples of personnel from each of the
two groups. A simple random attribute sample design was used in both cases.

Definition of the Audit Universe

For the craft employee assessment, the audit universe consisted of 5,333 craft
employees in the South Georgia District. For the supervisory-level assessment, the
audit universe was a total of 760 supervisors and managers in the district.

All training information came from the Postal Service personnel database in
Minneapolis, Minnesota.

Sample Design and Modifications

The audit used a simple random sample design. We randomly sampled 50 craft
employees and 50 managers and supervisors for review. This sample size was
planned to select employees at the second stage of a two-stage design and was,
therefore, not designed to provide a predetermined level of precision for an individual
district projection. In changing to district-level projections, the audit team agreed to
accept whatever level of precision derived from the existing sample size. Three
separate attributes were included for the supervisory-level training analysis.

Statistical Projections of the Sample Data

In general, the sample data were analyzed based on the estimation of a population
proportion for a simple random sample as described in Elementary Survey Sampling,
Scheaffer, Mendenhall, and Ott, c.1990.

In some cases, a low number of “positive” responses in the sample required analysis
using the hypergeometric adaptation of the binomial attribute table for controls testing,
found in the GAO’s Financial Audit Manual (the “FAM”). The tabulated values (for
95 percent reliability) are adjusted by the hypergeometric finite population correction,
((N-n)/(N-1))^0.5.



                                                 22
Review of the Violence Prevention and Response                                  LB-AR-00-005
 Programs in the South Georgia District



Results are presented for a one-sided confidence interval as well as the point estimate.
For the collection of supervisory attributes, the sum of the point estimates will equal the
total population. A sum of the upper bounds is meaningless because any increases in
one category would be offset by reductions in another.

Craft Employee Training Projection

Based on a projection of the sample results, we are 95 percent confident that no more
than 313 (6 percent) of the 5,333 craft employees in the South Georgia District received
training in workplace violence awareness. The unbiased point estimate is that zero
employees met the training criterion.

Supervisors and Managers: Training Projection

Based on a projection of the sample results, we are 95 percent confident up to
110 (14 percent) of the 760 South Georgia District supervisors and managers received
no workplace violence awareness training. The unbiased point estimate is 6 percent, or
46 supervisors and managers, who received no subject-matter training.

Based on a projection of the sample results, we are 95 percent confident that up to
757 (99 percent) of the 760 South Georgia District supervisors and managers received
some subject-matter training, possibly as part of other supervisory courses. The
unbiased point estimate is 94 percent, or 714 supervisors and managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 43 (6 percent) of the 760 South Georgia District supervisors and managers met or
exceeded the 12-hour subject-matter training criterion. The unbiased point estimate is
that zero supervisors and managers met the 12-hour criterion.




                                                 23
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District


                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                 24
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 25
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 26
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 27
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 28
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 29
Review of the Violence Prevention and Response        LB-AR-00-005
 Programs in the South Georgia District




                                                 30
